IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2021

No.

WILLIE M. HARDY, JR.
PETITIONER,
VS
UNITED STATES OF AMERICA,

RESPONDENT.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Pursuant to Title 18, United States Code Section 3006A(d)(6) and Rule 39 of this Court,

Petitioner, Willie M. Hardy, Jr., asks leave to file the attached Petition for Writ of Certiorari to
the United States Court of Appeals for the Fourth Circuit without prepayment of fees or costs and
to proceed in forma pauperis. Petitioner was represented by counsel appointed pursuant to Title
18, United States Code Section 3006A and F. R. Crim. Proc. 44 in the district court and on
appeal to the Fourth Circuit Court of Appeals.

Respectfully submitted,

Ok

Alan H. Yamamoto

643 S. Washington Street

Alexandria, VA 22314

(703) 684-4700
Counsel for Petitioner
